No. 19-71

 

IN THE

Supreme Court of the United States

FNU TANZIN, et al.,
Petitioners,
v.
MUHAMMED TANVIR, et al.,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

BRIEF OF AMICUS CURIAE
THE SIKH COALITION
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,534 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 12, 2020.

Colin Casey (—

Wilson-Epes Printing Co., Inc.
